April 30, 2001

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT: 	 Audit Report - Responsibilities of Contracting Officers' Representatives
           (Report Number CA-AR-01-002)

This report presents the results of our second and final review of responsibilities of
contracting officers' representatives for Facilities contracting (Project Number
99RA009CA000). The audit was a self-initiated review that was included in our
fiscal years 1999 and 2000 audit workload plans. The objective of our audit was to
determine if contracting officer representatives adequately administered facility
construction contracts.

We found that some contracting officer representatives were not administering
contracts as required by Postal Service Purchasing regulations. For example, we
found that a contracting officer representative improperly classified and managed a
guaranteed maximum price contract, and modifications to finalize notices to proceed
were not timely. In addition, contract work orders were not issued and invoice
certifications were not performed in the manner required by Postal Service
Purchasing regulations. Further, contractors’ actual performance periods exceeded
contract completion dates; contracting officer representatives were insufficiently
trained, and improperly appointed and terminated; and separation of duties was
inadequate. We made nine recommendations to address these issues.

Management agreed with eight of our recommendations but did not fully agree with
one recommendation. The Office of Inspector General (OIG) considers
recommendations 1-9 significant and, therefore, require OIG concurrence before
closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. These recommendations should not be closed in the follow-
up tracking system until OIG provides written confirmation that the recommendations
can be closed. Management’s comments and our evaluation of these comments are
included in the report.
We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Hermeta Martin-Reddon, acting director, Contracts, or me at 703-248-2300.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment

cc: John R. Gunnels
Responsibilities of Contracting                                CA-AR-01-002
 Officer Representatives


                                  TABLE OF CONTENTS

Executive Summary

Part I

Introduction                                                      1

  Background                                                      1

  Objective, Scope, And Methodology                               1

  Prior Audit Coverage                                            2


Part I

Audit Results                                                     4


   Contract Administration and Modifications                      4

   Recommendations                                                6
   Management's Comments                                          6

   Evaluation of Management’s Comments                            6


   Notices to Proceed and Finalize Contract Prices and Terms      8

   Recommendation                                                 9
   Management's Comments                                          9

   Evaluation of Management’s Comments                            9


   Work Orders and Invoice Certification                          10 

   Recommendations                                                11
   Management's Comments                                          11 

   Evaluation of Management’s Comments                            11 


   Repeat Findings                                                12 

   Recommendation                                                 12
   Management’s Comments                                          12 

   Evaluation of Management’s Comments                            13 


Appendix. Management’s Comments                                   14 

Responsibilities of Contracting                                                          CA-AR-01-002
 Officer Representatives


                                     EXECUTIVE SUMMARY
Introduction                      This is the second and final report on the responsibilities of
                                  contracting officer representatives in Facilities contracting.
                                  The objective of our audit was to determine if contracting
                                  officer representatives adequately administered facility
                                  construction contracts at Facilities Service Offices located in
                                  Atlanta, Georgia; Dallas, Texas; Denver, Colorado;
                                  Chicago, Illinois; Kansas City, Missouri; Greensboro, North
                                  Carolina; New York, New York; San Francisco, California;
                                  and Windsor, Connecticut; and Administrative Service
                                  Offices located in Billings, Montana; Mid Florida, Florida;
                                  Lancaster, Pennsylvania; Little Rock, Arkansas; Nashville,
                                  Tennessee; Omaha, Nebraska; and Phoenix, Arizona.

Results in Brief                  As a result of the audit, we determined that management
                                  has policies and procedures in place to provide for
                                  adequate contracting officer representative administration of
                                  construction contracts. However, we found that some
                                  contracting officer representatives were not administering
                                  contracts as required by Postal Service Purchasing
                                  regulations. For example, a contracting officer
                                  representative improperly classified and managed a
                                  guaranteed maximum price contract, and modifications to
                                  finalize notices to proceed were not timely. In addition,
                                  contract work orders were not issued and invoice
                                  certifications were not performed in the manner required by
                                  Postal Service Purchasing regulations.

                                  We also found that policies and procedures were not always
                                  followed, resulting in insufficient contracting officer
                                  representative training; a lack of appointment, replacement,
                                  and termination letters for representatives; unjustified
                                  contract extensions; a lack of separation of duties; and
                                  improper classification and management of a guaranteed
                                  maximum price contract. These issues were previously
                                  addressed in our prior report. Management agreed with the
                                  recommendations provided to address these issues and
                                  have begun taking corrective actions.

Summary of 	                      We recommend the vice president, Purchasing and
Recommendations 	                 Materials, and the vice president, Facilities, continue to fully
                                  implement corrective actions that address issues identified
                                  in our first audit, and make additional improvements to



                                                     i
Responsibilities of Contracting                                                       CA-AR-01-002
 Officer Representatives


                                  contract administration procedures with regard to the
                                  transfer and management of contracts, and the proper
                                  execution of modifications, work orders, and invoice
                                  certifications.

Summary of                        Management agreed with eight of our nine
Management’s                      recommendations but did not fully agree with
Comments                          recommendation three. Management asserted that Postal
                                  Service Purchasing policies allow contract modifications for
                                  unforeseen conditions and changes requested by local
                                  management. Therefore, it is difficult to draw hard lines
                                  around the “scope” of a contract. In the specific instance
                                  cited, management stated it is likely that the additional work
                                  requested met the definition of unforeseen conditions and/or
                                  local management requests.

                                  Regarding management’s response to recommendation
                                  three, we maintain that approximately $669,000 was used
                                  on a contract to fund modifications for work we believe was
                                  outside the scope of the original contract. Accordingly, we
                                  recommended the vice president, Facilities reemphasize the
                                  importance of not issuing modifications for work outside the
                                  scope of the original contract. Although management
                                  believes the work in question is within the general scope of
                                  the contract, management agreed to encourage the
                                  contracting officer's representative to consult with his
                                  managers in the future on borderline situations involving the
                                  scope of additional contract work. Therefore,
                                  management’s planned actions are responsive to
                                  recommendation three. We summarized these comments
                                  in the report and included the full text of comments in
                                  Appendix C.

Evaluation of                     Management’s planned or implemented actions are
Management                        responsive and address the issues identified in this report;
Comments                          therefore, no further action is required.




                                                    ii
Responsibilities of Contracting                                                        CA-AR-01-002
 Officer Representatives


                                          INTRODUCTION
Background                        Facilities is defined as an enabling organization established
                                  to gather and provide data to Postal Service operations to
                                  assist in planning and implementing facilities infrastructure
                                  investments. The Facilities Service Office actively searches
                                  for opportunities to solve ongoing facilities issues, some of
                                  which have remained unresolved for many years, and where
                                  possible, expediting the approval process for these
                                  opportunities. Once decisions are made and facilities
                                  projects are approved, the Facilities Service Office performs
                                  all negotiations, contracting, design, and construction
                                  through project completion.

                                  Facilities contract administration is primarily conducted by a
                                  contracting officer representative in conjunction with the
                                  contracting officer. The contracting officer representative
                                  may be assigned a wide range of responsibilities for
                                  administering facility construction contracts. These
                                  responsibilities may include certifying invoices, reviewing
                                  guaranteed maximum price contracts, performing
                                  inspections, accepting goods and services, and properly
                                  documenting contract time extensions. In carrying out
                                  contracting officer representative responsibilities, the
                                  representative should be properly trained, appointed, and
                                  terminated when appropriate. It is also important that
                                  contracting officer and contracting officer representative
                                  duties be clearly defined to ensure proper separation of
                                  duties.

Objective, Scope, and The objective of the audit was to determine if contracting
Methodology           officer representatives adequately administered facility
                      construction contracts. We evaluated the execution of
                      modifications, sufficiency of documentation, adequacy of
                      receipt of goods and services, and the adequacy of invoice
                      certification. Also, we reviewed contracting officer
                      representative training, appointments, and terminations.

                                  We interviewed Postal Service employees as well as
                                  contract employees retained by the Postal Service to aid in
                                  the administration of facilities contracts at the Facilities
                                  Service Offices in Atlanta, Georgia; Dallas, Texas; Denver,
                                  Colorado; Chicago, Illinois; Kansas City, Missouri;
                                  Greensboro, North Carolina; New York, New York; San
                                  Francisco, California; and Windsor, Connecticut; and
                                  Facilities Service Offices in Administrative Service Offices



                                                     1
Responsibilities of Contracting                                                      CA-AR-01-002
 Officer Representatives


                                  in Billings, Montana; Mid Florida, Florida; Lancaster,
                                  Pennsylvania; Little Rock, Arkansas; Nashville, Tennessee;
                                  Omaha, Nebraska; and, Phoenix, Arizona. We also
                                  reviewed applicable contract files, contracting officer
                                  representative files, and architect and engineering files.
                                  We reviewed other relevant documentation, as were
                                  considered necessary.

                                  We judgmentally selected 114 open and closed contracts
                                  valued at $100,000 or more. The contracts were dated
                                  from September 1996 through December 1998. Our
                                  sample was selected from a contract listing provided by
                                  Postal Service Facilities Headquarters. We conducted this
                                  audit in two phases. We issued a report on September 30,
                                  1999, that covered 49 contracts reviewed during the first
                                  phase. This report for the second phase summarizes audit
                                  work for the remaining 65 contracts. We used computer-
                                  generated data to support findings and conclusions, but we
                                  did not validate application controls. Instead, we assessed
                                  the reliability of this data by reviewing source documents
                                  and through discussions with management officials.

                                  This audit was conducted from September 1999 through
                                  April 2001 in accordance with generally accepted
                                  government auditing standards and included tests of
                                  internal controls that were considered necessary under the
                                  circumstances. We discussed our conclusions and
                                  observations with appropriate management officials and
                                  included their comments where appropriate.

Prior Audit Coverage 	 Our first report, Responsibilities of Contracting Officer's
                       Representatives, report number CA-AR-99-003, was issued
                       on September 30, 1999. The audit disclosed that:

                                  • 	 Regular audits were not being performed on guaranteed
                                      maximum price contracts to determine potential Postal
                                      Service savings.

                                  • 	 Contractors' invoices did not adequately support stored
                                      materials.

                                  • 	 Final inspections and acceptance were not properly
                                      documented.

                                  • 	 Progress payments were made that the Postal Service
                                      was not billed for.


                                                    2
Responsibilities of Contracting                                                        CA-AR-01-002
 Officer Representatives


                                  • 	 Contractor's period of contract performance exceeded
                                      the contract completion date without proper justification
                                      or assessment of damages

                                  • 	 Some contracting officer representatives were not
                                      properly trained, appointed, or terminated.

                                  • 	 Adequate separation of duties did not exist to ensure
                                      necessary checks and balances were in place to protect
                                      the integrity of the procurement process.

                                  We made recommendations to address these issues.
                                  Management agreed with the recommendations and has
                                  started to take corrective actions.




                                                     3
Responsibilities of Contracting                                                       CA-AR-01-002
 Officer Representatives


                                          AUDIT RESULTS
                                  We determined that management has policies and
                                  procedures in place to provide for adequate contracting
                                  officer representative administration of construction
                                  contracts. However, we found that some contracting officer
                                  representatives were not administering contracts as
                                  required by Postal Service Purchasing regulations. For
                                  example, a contracting officer representative improperly
                                  classified and managed a guaranteed maximum price
                                  contract, and modifications to finalize notices to proceed
                                  were not timely. In addition, contract work orders were not
                                  issued and invoice certifications were not performed in the
                                  manner required by Postal Service Purchasing regulations.

                                  We also found that policies and procedures were not always
                                  followed resulting in insufficient contracting officer
                                  representative training; a lack of appointment, replacement,
                                  and termination letters for representatives; unjustified
                                  contract extensions; a lack of separation of duties; and
                                  improper classification and management of a guaranteed
                                  maximum price contract. These issues were previously
                                  addressed in our prior report. Management agreed with the
                                  recommendations provided to address these issues and has
                                  started to take corrective actions.

                                  We also found problems with contract administration and
                                  modifications, as well as notices to proceed and finalize
                                  contract prices and terms. We also found that contract work
                                  orders were not issued and invoice certifications were not
                                  performed in the manner required by Postal Service
                                  Purchasing regulations.

Contract                          Contracting officer representatives are responsible for
Administration and                administering the terms of guaranteed maximum price
Modifications                     contracts. Guaranteed maximum price contracts are
                                  contracts, which allow the Postal Service to share in any
                                  cost savings, established by the terms of the contract. If the
                                  final cost of the total project is less than the guaranteed
                                  maximum price, the Postal Service shares in the savings in
                                  accordance with a contractually established ratio. The
                                  Postal Service contracts with construction management
                                  support service firms to perform monthly reviews of
                                  contractors' costs for many reasons, including determining
                                  any potential shared savings on guaranteed maximum price
                                  contracts.



                                                     4
Responsibilities of Contracting                                                       CA-AR-01-002
 Officer Representatives


                                  We identified a guaranteed maximum price contract
                                  originally issued by the Major Facilities Office, which was
                                  subsequently transferred to another office. The contracting
                                  officer representative in the second office administered the
                                  contract as if it were a fixed-price contract instead of a
                                  guaranteed maximum price contract. According to the
                                  contracting officer representative, he was not aware of the
                                  contract type because it took the originating office several
                                  months to transfer the contract documents to his office. In
                                  addition, after receiving the contract files the contracting
                                  officer representative overlooked the contract type. As a
                                  result, no monthly reviews were performed and the Postal
                                  Service missed the opportunity to share potential cost
                                  savings.

                                  In addition, the same contract had $2.2 million in
                                  modifications. Specifically, the contract was awarded to
                                  design, build, and install security systems at four Postal
                                  Service facilities, however, approximately $669,000 was
                                  used to fund modifications for work we believe was outside
                                  the scope of the original contract. For example, one
                                  modification in the amount of $170,000 was issued for the
                                  installation of landscape material at a Postal Service site.
                                  Examples of other modifications we believe were outside
                                  the scope of the original contract include modifications for
                                  traffic analysis, lobby finishes, and road widening.

                                  According to the Real Estate, Design and Construction
                                  Handbook, Procedure 270.70, modifications should be
                                  made only to correct design deficiencies and unforeseen
                                  conditions. Additionally, as stated in the Purchasing
                                  Manual, Section 1.7.1.a, purchases valued at more than
                                  $10,000 (the competitive threshold) must be made on the
                                  basis of adequate competition, whenever appropriate, to
                                  ensure the price is fair and reasonable. The contracting
                                  officer representative stated he believes all work was within
                                  the general scope of the original contract. However, we
                                  believe this work was outside the original intentions of the
                                  contract and should have been treated as new work, subject
                                  to competition requirements. The lack of competition for the
                                  new work resulted in the Postal Service having no
                                  assurance of a fair and reasonable price.




                                                    5
Responsibilities of Contracting                                                         CA-AR-01-002
 Officer Representatives



Recommendation 	                  The vice president, Facilities, should:

                                  1. Establish policies that include specific
                                     instructions/checklist detailing procedures for
                                     transferring projects between offices.

Management’s 	                    Management agreed with our recommendation and stated
Comments 	                        that standard procedures will be established by
                                  headquarters Facilities and distributed to the field offices by
                                  October 1, 2001.

Evaluation of                     Management’s comments are responsive to our 

Management’s                      recommendation. 

Comments 


Recommendation                    2. Provide specific training to the contracting officer
                                     representative involved in the contract on the proper
                                     transfer of projects and files from other offices and what
                                     action to take when a project is transferred without
                                     proper files.

Management’s                      Management agreed and stated training will be provided by
Comments                          the Atlanta Facilities Service Office manager, Design and
                                  Construction within 60 days of our final audit report.

Evaluation of                     Management’s comments are responsive to our 

Management’s                      recommendation. 

Comments 


Recommendation                    3. Reemphasize to the contracting officer representative
                                     involved in the contract the importance of not issuing
                                     modifications for work outside the scope of the original
                                     contract.

Management’s                      Management disagrees with our recommendation regarding
Comments                          out of scope contract work. Management believes in the
                                  specific instance cited, unforeseen conditions provide the
                                  contracting officer/contracting officer's representative with
                                  latitude to determine whether necessary changes are within
                                  the general scope of the contract. Although management
                                  believes in this instance the work was within the general
                                  scope of the contract, the contracting officer's
                                  representative will be encouraged to consult with his
                                  managers on borderline situations involving scope of work
                                  additions in future procurements. Management also stated


                                                     6
Responsibilities of Contracting                                                         CA-AR-01-002
 Officer Representatives


                                  that we incorrectly characterized guidance on modifications
                                  from the Real Estate, Design and Construction Handbook,
                                  Procedure 270.70.

Evaluation of                     Management’s comments are responsive to our
Management’s                      recommendation. However, the OIG disagrees with
Comments                          management’s comments regarding our finding. We feel
                                  the issuance of any modifications for work outside the scope
                                  of the original contract should thoroughly be reviewed and
                                  evaluated to ensure a fair and reasonable price is obtained.
                                  We do feel that management's comment encouraging the
                                  contracting officer's representative to consult with his
                                  manager on borderline situations an appropriate response.
                                  The OIG also disagrees with management’s statement that
                                  we incorrectly stated guidance on modifications from the
                                  Real Estate, Design and Construction Handbook, Procedure
                                  270.70. This information was correctly cited and referenced
                                  from the appropriate source at the time of our audit. After
                                  researching and reviewing management’s reference to
                                  section 6.5 of the new Handbook P-2, Design and
                                  Construction Purchasing Policies, dated March 1999, we did
                                  not find any language in the policies to support
                                  management’s statement that modifications are allowed for
                                  unforeseen conditions and local management requested
                                  changes. Further, management’s assertion that unforeseen
                                  conditions provide the contracting officer/contracting
                                  officer's representative with latitude to determine whether
                                  necessary changes are within the general scope of the
                                  contract is a broad interpretation of the policies.

Recommendation                    4. Direct the contracting officer on this contract to close out
                                     the contract and use proper procedures for completing
                                     any other contractual requirements.

Management’s                      Management stated that according to the contracting officer,
Comments                          the project cited in our report has been closed out.

Evaluation of                     Management’s comments are responsive to our 

Management's                      recommendation. 

Comments 





                                                     7
Responsibilities of Contracting                                                         CA-AR-01-002
 Officer Representatives



Notices to Proceed                Our review at one Facilities Service Office revealed a
and Finalize Contract             contract originally valued at $4,911,131, which had nine
Prices and Terms                  notices to proceed without timely negotiation of a contract
                                  price. The notices to proceed included the Postal Service
                                  estimated cost for the additional contract changes.
                                  Modifications to finalize the contract price and terms were
                                  eventually issued; however, in some cases the
                                  modifications were issued after the work was completed.
                                  Notices to proceed are issued when contract changes are
                                  required to allow a supplier to proceed with work up to the
                                  estimated total cost prior to a modification being issued to
                                  finalize the contract price and terms. According to Section
                                  6.5.2.c of the Purchasing Manual, contracting officers must
                                  promptly negotiate equitable adjustments resulting from the
                                  contract changes and follow up when claims for equitable
                                  adjustments are not received within 30 days. Contrary to
                                  Postal Service's procurement requirements, nine notices to
                                  proceed were not negotiated and, therefore, contract price
                                  and terms were not finalized until an average of 190 days
                                  after the notices to proceed were issued. For example, in
                                  one case the notice to proceed was issued in
                                  November 1998, however, the modification was not finalized
                                  until October 1999, 332 days after the notice to proceed
                                  was issued. The total value of the notices to proceed was
                                  $1,211,508.

                                  According to the contracting officer representative, notices
                                  to proceed were issued to allow work to begin; however,
                                  sometimes the contractors were not expedient in finalizing
                                  their pricing. The contracting officer and the contracting
                                  officer representative are responsible for ensuring that the
                                  modifications finalizing contract price and terms are issued
                                  in a timely manner.

                                  As a result of this practice, the Postal Service's contract
                                  negotiation position was weakened because the Postal
                                  Service had to determine if contractors' costs were
                                  reasonable after costs had been incurred and work
                                  completed. In addition, the contractor had no incentive to
                                  control costs. Specifically, the contractor was aware of the
                                  estimated cost, which could have been overstated and
                                  based progress payments upon these estimates. This left
                                  the Postal Service with little or no leverage in negotiating a
                                  fair and reasonable price.




                                                     8
Responsibilities of Contracting                                                        CA-AR-01-002
 Officer Representatives


Recommendation                    The vice president, Facilities, should:

                                  5. Ensure the contracting officer involved in this contract is
                                     negotiating equitable adjustments resulting from change
                                     orders and finalizing contract prices and terms as
                                     prescribed by the Purchasing Manual.

Management's                      Management agreed with the recommendation and stated
Comments                          that they will pursue action upon confirmation from our office
                                  on the appropriate contracting officer to be notified. It is
                                  anticipated the corrective action will be implemented within
                                  60 days of our final report. Management also stated that
                                  this issue will be stressed at the national Design and
                                  Construction Managers meeting scheduled for April 25,
                                  2001.

Evaluation of                     Management’s comments are responsive to our
Management's                      recommendation. We verbally provided the manager,
Comments                          Design and Construction with the contracting officer’s name
                                  based on the information in our files.




                                                     9
Responsibilities of Contracting                                                          CA-AR-01-002
 Officer Representatives



Work Orders and                   Our review in one district revealed that a contracting officer
Invoice Certification             representative exceeded his authority by issuing work
                                  orders to the contractor, and did so without notifying the
                                  contracting officer. According to Exhibit 2.4.6.c-20 of the
                                  Design and Construction Purchasing Practices Handbook,
                                  the contracting officer is the person delegated the authority
                                  to place work orders against the contract up to the
                                  contracting officer’s warrant authority. Since the contracting
                                  officer did not place the orders or receive copies of the work
                                  orders, he could not properly account for the work being
                                  performed or the dollars expended.

                                  In addition, the contracting officer representative certified
                                  invoices for deficient work without making appropriate
                                  adjustments to the invoices. As a result, there was no
                                  assurance that the contractor ever completed the work or
                                  that Postal Service ever received what was paid for.

                                  Upon receipt of invoices, an on-site Postal Service
                                  employee performed an inspection and notified the
                                  contracting officer representative of the status of the work
                                  completed. Although, the deficiencies and incomplete work
                                  were documented during the inspection, the contracting
                                  officer representative approved the invoices in full and
                                  forwarded them to the contracting officer without noting the
                                  deficiencies. Relying upon the contracting officer
                                  representatives' certification, the contracting officer signed
                                  the invoices for payment.

                                  According to the contracting officer representative, the
                                  incomplete or deficient work was usually not significant;
                                  therefore, he did not hold up payment for work he
                                  considered minor. Consequently, he approved the invoices
                                  and forwarded them to the contracting officer to certify and
                                  make payment. The contracting officer representative
                                  should have adjusted the invoices to exclude the incomplete
                                  or deficient work prior to forwarding them to the contracting
                                  officer. According to Section 6.2.3.a of the Purchasing
                                  Manual, inspection and acceptance requires inspection of
                                  goods or services and acknowledgement that they conform
                                  to quality and quantity requirements established in the
                                  contract. Furthermore, as stated in Section 6.4.2.b of the
                                  Purchasing Manual, invoices submitted before performance
                                  or delivery violates the certification provision of the "Invoices
                                  clause."



                                                     10
Responsibilities of Contracting                                                        CA-AR-01-002
 Officer Representatives




Recommendations                   The vice president, Facilities, should ensure that the
                                  contracting officer involved in this contract:

                                  6. Issue written orders for all work under this contract.

                                  7. Does not approve monthly progress payments without
                                     adequate supporting documentation.

                                  8. Does not recommend full payment of invoices for work
                                     that is deficient or incomplete.

Management’s                      Management agreed with the recommendations. The
Comments                          District Administrative Services manager will be notified in
                                  writing of the finding and recommendation within 30 days
                                  from issuance of the final report. Further, the District
                                  Administrative Services manager will explain to the
                                  manager, Maintenance the limits of his authority.

Evaluation of                     Management’s comments are responsive to our 

Management’s                      recommendations. 

Comments 





                                                    11
Responsibilities of Contracting                                                        CA-AR-01-002
 Officer Representatives




Repeat Findings                   The following three areas of concern were presented in our
                                  prior report; however, we also noted them during this phase
                                  of the audit:

                                  • 	 In 2 of the 65 contracts reviewed, the actual period of
                                      performance exceeded the contract completion date
                                      without proper justification or assessment of damages to
                                      the contractor.

                                  • 	 In 38 of the 65 contracts reviewed, the contracting officer
                                      representative had not received required training; 19 had
                                      not been properly appointed and 6 were not properly
                                      terminated.

                                  • 	 In 2 of the 65 contracts reviewed, adequate separation
                                      of duties did not exist. The contracting officer
                                      representatives served in dual roles signing progress
                                      payments as the contracting officer representative and
                                      signing as the approval official.

                                  In response to our September 30, 1999, report,
                                  management provided planned corrective actions to
                                  address these types of issues (See Appendix A).

Recommendation 	                  The vice president, Purchasing and Materials, and the vice
                                  president, Facilities, should:

                                  9. Provide an update to the Office of Inspector General
                                     documenting the progress made in implementing the
                                     planned corrective actions submitted in response to the
                                     September 30, 1999 report.

Management's                      Management agreed with the recommendation. The vice
Comments                          president, Purchasing and Materials, provided the OIG an
                                  update on the status of corrective actions submitted in
                                  response to our September 30, 1999, audit report. In a
                                  memorandum dated March 12, 2001, the OIG was advised
                                  that all necessary steps to implement recommendations in
                                  the prior report are now complete. In addition, they plan to
                                  cascade this final report under their Purchasing Review for
                                  Excellence Program to Facilities Services Office managers.
                                  They will also request these managers to cascade the
                                  report to Administrative Services Office managers within




                                                    12
Responsibilities of Contracting                                                      CA-AR-01-002
 Officer Representatives



                                  their area of responsibility. Also, management stated that
                                  they are in the process of developing and deploying a
                                  Postal Service intranet accessible Web-based training
                                  program for contracting officer's representatives.

Evaluation of                     Management’s actions are responsive to our 

Management's                      recommendation. 

Comments 





                                                    13
Responsibilities of Contracting                        CA-AR-01-002
 Officer Representatives


                     APPENDIX. MANAGEMENT’S COMMENTS




                                    14
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  15
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  16
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  17
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  18
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  19
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  20
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  21
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  22
Responsibilities of Contracting        CA-AR-01-002
 Officer Representatives




                                  23
